LAWRENCE J. EMERY, P.C.
ATTORNEY AND COUNSELOR

924 CENTENNIAL Way, Surry, 470

LANSING, MICHIGAN 48917 Fax
LAWRENCE J. EMERY (S17) 337-4866 (517) 337-4869
May 24, 2021

Clerk of the United States Supreme Court
1 First Street, NE
Washington, DC 20543

RE: Dax Carpenter v Julie Elizabeth Carpenter, Docket No. 20-1511
Dear Clerk:

Trepresent the Respondent, Julie Elizabeth Carpenter. My representation in the past has
included all proceedings in the trial and appellate courts in Michigan.

Due to my age and the impact of COVID 19 on my business, I decided to retire after 48
years in practice. I began the process of closing my practice in February, 2021. For the past 35
years I have been a sole practioner. As a result, I relied heavily on my staff. In anticipation of
retirement, I have laid off my staff and terminated on-line research services. As a result of these
extraordinary circumstances, any response wil! take additional time.

It was two months after making this decision that I received the Petition for Certiorari
filed by Petitioner. I immediately began searching for alternate counsel for Respondent. I have
been working with an office that specializes in appellate work in the family law area. However,
additional time will be required to bring counsel up to date.

Tcontacted your office in early May, 2021 and informed a representative of your office of
these circumstances. Since then I have attempted to compose and file a response within the

original time limit. I have been unable to do so.

Ihave contacted opposing counsel and he has advised that he does not oppose a 30 day
extension. He will be receiving a copy of this letter via the e-filing process.

Tam filing this request pursuant to Fed. Sup. Ct. R. 30.4. I confirmed with your office
that a formal motion under Fed. Sup. Ct. R. 21is not required.

I will be e-filing this letter, but will not be submitting it in paper form pursuant to the
Court’s April 15, 2020 Order.

If my understanding of the filing requirements is incorrect, please advise immediately.

® ccyciea paper

 
1 am requesting an extension of time to file Respondent’s brief for 30 days from the
current due date of May 28, 2021.

Should you have questions or concerns please advise.

Sincerely,

Lawrence J. Eme
Attorney for Respondent

cc: Carson Tucker
Attorney for Petitioner

 
